i.

f

5063
No.

IN THE

Supreme Court, U.S.
FILED

Supreme Court of the United States

M 2 4 2021
OFFICE OF THE CLFRK

Sammy Cano,Reg.No. M40291
V.
The People of the State of Illinois
$

if
-h

On Petition For Writ Of Certiorari
To The Illinois Supreme Court

PETITION FOR WRIT OF CERTIORARI

Sammy Cano M40291 Pro se,
251 North Illinois Highway 37
Ina, IL. 62846

ii:
»

RECEIVED
JUL - 7 2021

irmsrasmx: I

QUESTIONS PRESENTED
US

1. Whether or not the State failed to prove Sammy Cano guilty beyond a
reasonable doubt where the only witness to the crime directly contradicted
her prior statements about which body parts of the defendants touched hers, her
response to that contact, or whether she was threatened during that incident;
and where the witness claimed that her cousin was touched during the same incident,
but the cousin flatly that the incident occurred.

2. Whether Chicago Police Officers unconstitutionally seized Sammy Cano in
a home depot parking lot when he neither committed nor witnessed a crime,contrary
to the circuit court's ruling on Sammy's motion to quash arrest.

3.Whether or not the circuit court should have provided Sammy Cano with
new council to assess his claim that trial council;ineffectively failed to
present evidence showing an inculpatory statement was coerced.

4

4. Whether or not the circuit court excessively sentenced Sammy Cano to

three times the minimum term even though Sammy had not committed any crimes
in the decade since the incident and that he had established himself as a
productive member of society and caring father to two young children.

CD

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

•T

(2)

TABLE OF CONTENTS

OPINIONS BELOW

page 5

JURISDICTION

page 6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

page 7

STATEMENT OF THE CASE

page 8-16

REASON FOR GRANTING THE WRIT

page 17-32

CONCLUSION

page 33

INDEX TO APPENDICES

APPENDIX A

The Illinois Appellate Court Decision

APPENDIX B

Denial from the Illinois Supreme Court

(3)

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
In re Winship 397 U.S. 368,364(1970)
People v. Smith 185 Ill.2d 532,541(1999)
People v.Davis 278 Ill.App 3d 532 (1st Dist.1996)
People v. Stull 2014 IL App(4th)120704
People v.Lopez 229 Ill.2d 322,346(2008)
In re D.G. 144 Ill.2d 404,409(1991)
People v.Love,199 Ill 2d 269,278(220)
People v.Buss,187 Ill.2d 144,204(1999)
People v.Relwani,2019 IL 123385
People v.Grant 2013 II 112734119
People v. Espino-Juarez 2018 IL App(2d) 15096611
People v.Krankel 102 I112d 181(1984)
People v. Robinson 157 Ill 2d 68,86(1993)
People v.Sanchez 329 Ill.App.3d 59,66(2002)
People v.Nitz 143 Ill.2d 82(1991)
People v.Moore 207 Ill.2d 68,78(2003)
People v.Taylor 237 Ill 2d 68,75(2010)
People v.Hale 2013 IL 12140
Strickland v.Washington 466 U.S. 668,687(1984)
People v.Cano 220 IllApp.3d 725,729(lst Dist.1991)
People v.Stacy 193 I112d 209-l-(2000)
People v.McGee 398 IllApp 3d 789,795(lst Dit.2010)
People v.Jones 118 IllApp. 2d 189,198(lst Dist.1969)
People v.Wendtl63 Ill 2d 346,353(1994)
People v. Steffens 131 Ill.App.3d 141,151(lst Dist.1985)
People v.Kosanovich, 69 Ill.App 3d 748,752(lst Dist.1979)
People v.Williams 196 Ill App 3d 851,867-68(lst Dist.1990)
People v. Colter 181 Ill.App 3d 393-96(3rd Dist.1989)
People v.Bailey 88 Ill App 3d 416,424-25(3rd Dist.1980)

Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page

18
18
18
18
22
22
22
22
23,24
23,24
23,24
26,27,28,
26
26,27
26
26,28
27
27
27
27
29
29
29
30
30
30
30
30
30

STATUTES AND RULES
720 ILCS 5/12-14.1(a)(1) (2002)
720 ILCS 5/12 (f) (2002)
720 ILCS 5/12-16 (b) (2002
720 ILCS 5/12-12 (e) (2002
625 ILCS 5/11-1006(b) (2012)
625 ILCS 5/1-126 (2012)
Chicago Municipal Code § 10-8-515 (a),(b)
720 ILCS 5/31-4.5 (2012)
625 ILCS 5/11-1006 (b)(2012)
Chicago Municipal Code §10-8-515 (a) (b)
720 ILCS 5/31-4.5 (2012)
Illinois Constitution of 1970 Art.I § 11

Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page
Page

18
18
18
19
23
23
23
23
24
24
24
18,30

US CONSTITUTIONAL AMENDMENT
U. S. Cons t. Amend. XIV,

Page 18

(4)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION tfOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgement below.
-r-

/

Opinions^ below
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is reported at 2020 IL App (1st) 182100-U
(Unpublished Order)

The opinion of the Illinois Supreme Court appears at Appendix B to the petition
and is unpublished.

(5)

JURISDICTION

The .'date on which the highest state court decided my case was March 24th,2021.
A copy of that decision appears at Appendix B.

The jurisdiction of this Court is invoked under 28 U.S.C.§ 1257 (a).

. (6)

CONSTITUTIONAL AND STAUTUTORY PROVISIONS INVOLVED

1. Whether Sammy Cano received a fair trial, where there was conflicting
and contradictory testimony from the victim herself about what body parts were
used in the alleged contact between the two,and where there was direct contrdiction of the victims testimony that she wasn't the only victim, that her cousin
was also abused, and that cousin denied any abuse whatsoever.

2.Whether Chicago Police Officers violated the Fourth Amendment rights
of Sammy Cano when they seized him in a Home Depo Parking lot when he had neither
witnessed nor committed a crime.

3.Whether there was an abuse of discretion by the trial Judge for not
providing Sammy Cano council to assess whether or not trial council was ineffect­
ive for failing to present evidence showing an inculpatory statement to police
was coerced.

4.Whether or not Sammy Canos sentence is excessive despite his history
of no arrests in the ten year time frame after tha alleged crimes occurred.

(7)

i

7

(,

J

STATEMENT OF FACTS
In 2012,the State charged Sammy Cano with predatory criminal sexual assault
of a child and aggravated criminal sexual abuse for alleged incidents involving
Sammy's younger cousin Jocelyn Gutierrez 10 years earlier.(C.20,23)Sammy maintained
his innocence throughout trial,insisting that he never touched Jocelyn and that
Jocelyn's account contradicted her cousin Gabriella Guttierez's testimony.(R.325-29,
337-41,354-57)
Motion to Quash Arrest
Prior to trial,Sammy filed a motion to quash his warrantless arrest outside
of a Home Depot and to supress statements that were the fruits of that unlawful
arrest. (C.54-56)
At a hearing on that motion to quash,Sammy testified that at 10:00 a.m.
on January 17,2012,he was at Hdme DepoEht _47th_StFeeT and Western in Chicago
buying a sponge.(C.84) When he left the store,he saw several acquaintances who
were looking for work;although Sammy was employed and not seeking a job,he joined
the group briefly.(C.85-86,90)Sammy admitted that,in the past,he had approached
cars in that area seeking work,but on that day he was employed and on his way
to his job.(C.88,90) Two officers approached the group and stopped them,asking
for identification.(C.84-84) Sammy,who testified he did not feel free to leave
and was not shown any warrant,produced his ID card.(C 85-86) Ihis card stated
that his name was Sammy Cano; Sammy denied provided giving any false names or
birth dates to the officers.(C.86,89) One of the officers told Sammy that the
officers wanted to speak to him.(C.89) The officers then handcuffed Sammy,searched
him,and placed him in the back of their cruiser before driving him to the police
station.(C.87)
Officer Dennis Gonway^.one.. of ’thd'arresting 'Officer's^testified That-he-and
his partner traveled: to -s theSparking lot of Home Depot to respond to "complaints (8).

of loitering" that had been filed in the past six months.(C.102)The officers did
not receive any complaints that day. (C.103) Conway and his partner approached
a group of individuals they did not know in that parking lot;Conway's partner
spoke to them in Spanish.(C.104-105)Conway admitted that he did not have a warrant
and was not investigating a crime at the time he approached the group.(C.106)
Conway saw Sammy in the group;although Conway saw the men approaching cars
in the parking lot,he did not initiate any charges against Sammy based on that
activity.(C.107)Conway's partner asked Sammy his name.(C.108)Sammy said his name
was Sammy Lopez and supplied two different birth dates.(C.108,113)The officers
attempted to search that name in their computer,but did not find any matches.
(C.114.)At that time,the officers"placed[Sammy] in custody for obstruction of
identification."(C.108)Conway reiterated that the officers placed Sammy in custody
after he provided a false name and birthday.(C.108)
Conway then conducted a "custodial search" of Sammy and recovered an ID
card with the name SamMy Cano on it.(C.108)The officers then did a name check
on the computer in their car,which revealed an investigatory alert.(C.109)They
did not learn of the investigative alert until after Sammy was in custody.(C.114)
That alert provided Sammy's name,an alert number,and the name of the detective
who created the alert.(C.110) Conway did not recall whether the investigative
alert indicated that there was probale cause for Sammy's arrest.(C.110)According
to Conway,detectives issue such alerts when they would like to speak to someone
regarding a crime,(C.lll)Such alerts do not contain statements by the victim,
alleged facts,or the nature of the potential charges against the subject.(C.Ill)
Detective Manuel De La Torre then testified that he questioned Sammy
between 7:00 p.m. and 11:00 p.m. that night.(C91-92) De La Torre did not record
Sammy's statements.(C.93) De La Torre testified that an investigative alert for
Sammy had been issued based upon a 2004 incident between Sammy and his younger
cousin Jocelyn;however,De La Torre did not know when the alert was submitted and

gj

did not testify as to the alert's contents.(C.94-96) De La Torre testified that
he did not know what information about the allegations against Sammy,if any,
would have been visible to the arresting officers at the time of arrest.(C.99)
However,when shown a printout of an investigative alert pertaining to Sammy,
De La Torre acknowledged that it did show that the alert was initially rejected
when filed.(C.99)
Defense counsel argued that the officers were not investigating any crime
at the time they stopped Sammy.(C.115)Nor did Sammy commit any crime by giving
false identification to the officers,that is only illegal where a person has
been lawfully arrested or detained,or if an officer has "good cause" to believe
the subject is a witness to a criminal offense.(C.115)
Without asking the State if it wanted to argue,the circuit court issued
its ruling.(G.117)The court claimed that the officers could arrest Sammy for
giving two seperate names and birthdays,and that once the officers found an
investigative alert they[had] to follow police procedures and send him to the
detective.(C.118)Thus,the court denied the motion to quash.(C.118)
Defuse counsel filed a motion to reconsider,which the court likewise denied,
noting that the detention was not lengthy and that when Sammy gave a false name,
"the investigation grew from there."(R.54)
Jocelyn's Trial Testimony
At the jury trial,Jocelyn,who was then an 18-year-old student at Harper
College,testified about an incident involving Sammy in 2002.(R.222-23)ln 2002,
Jocelyn was 6 years old and lived in a high-rise apartment with her parents ;her
cousin Dany,who had three children,also lived in the building.(R.223) Dany is Sammy's sisiter.(R.226) Dany often babysat Jocelyn before scholl when Jocelyn's
mother had to work.(R.224)
Jocelyn testified that on the date of the incident,she was playing in
the living room of Dany's apartment with her cousin Gabriela,who is two years

(10)!

younger,and her cousin Jackie,who is younger than Gabriela«(R.224,226) The living
room was only five feet away from the bedroom that Dany's children shared. (R.233-34)
Jocelyn testified that she was not sure whether Dany was home that day;
when defense counsel confronted Jocelyn with her 2004 statement to investigators
that Dany was home at that time,Jocelyn claimed she could not recall making that
statement. (R.234,238) Jocelyn's mother also testified that Dany was in the living
room watching television throughout the incident.(R.253,256)
According to Jocelyn,Sammy was in the apartment and called Jocelyn and
Gabriela into the children's bedroom.(R.226)Sammy closed the door and took
Jocelyn and Gabriela behind the bunk bed.(R.227)Sammy made Jocelyn lay on the
floor,pulled down her pants and panties,and used his tongue to lick between the
lips of her vagina for a "couple of minutes."(R.227)Jocelyn testified that Gabriela
was in the room during the entire incident.(R.236)Although Jocelyn testified that
she could not remember what "interaction" Sammy, and Gabriela had in the room,
she admitted that in 2004 she told both her mother and investigators that Sammy
had touched Gabriela in the same way.(R.236-38,244,256,267)
Jocelyn did not tell anyone about the incident at the time because she
thought that she had done something wrong.(R.228)two years later,she decided to
tell one of her teachers about the incident;that teacher then told Jocelyn's
mother.(R.228-29)When Jocelyn's mother asked her about the incident,Jocelyn said
that Sammy used his fingers,not his tongue,to touch her.(R.229)She would repeat
the claim that Sammy used his fingers to investigators at the Children's
Advocacy Center in Chicago in 2004,when she specifically recalled feeling Sammy's
fingernails touching her.(R.244,268)Jocelyn did not tell anyone that Sammy touched
her with his tongue until ten years later,and did not tell that version of her
story until after Sammy had given a statement to police about the incident.(R.244,315)
Jocely testified that she did not remember whether Sammy threatened her
and admitted that she told investigators that Sammy did not threaten her;however
(------ 1

(l!)j

she did tell her mother that Sammy had threatened her.(R.238-39,245,253)An
investigator who observed Jocelyn's 2004 interview at the Children's Advocacy
Center also testified that Jocelyn said she screamed throughout the incident.(R.269)
According to Jocelyn's 2004 interview,Dany was in the living room five feet away
from the children's bedroom the entire time,but never responded to her screams.
(R.269,275)
Sammy's Alleged Statements

'

Detective De LA Torre testified at trial that he interviewed Sammy in
Spanish around 7:00 the night of Sammy's arrest.(R309-10)0n cross-examination,
De La Torre admitted that he made no audio,video,or handwritten notes contempor­
aneously with this interview;nor did he ever prepare a typewritten statement for
Sammy to sign.(R.316)
According to De La Torre,Sammy said that ten years earlier he visited
his sister Dany frequently,sometimes while her kids and Jocelyn were in the
apartment.(R.312)Sammy said he was there one day when the other adults were
gone.(R.312)Sammy said that while he was playing with Jocelyn that day,he
took her clothes off,then put his tongue between her vagina lips and kissed it.
(R.313)In his later testimony at trial,Sammy would deny making this statement.
(R.338)
On cross-examination,defense counsel confirmed that De La Torre did not
record the statement.(R.317)Additionally,Sammy.never said that Gabby:was in the
room during the incident or that Jocelyn screamed during the incident.(R.317)
Sammy also never

said that he used his fingers to touch Jocelyn.(R.318)Counsel

did not ask De La Torre about the conditions of this interrogation or the specific
questions that De La Torre posed to Sammy during this interview.
Defense Evidence at Trial
Gabriela testified for the defense.(R.325)Gabriela confirmed that when
she 4 years old,her older cousin Jocelyn often came to visit her apartment,
!

where Gabriela's mother Dany would watch them as well as Gabriela's two siblings.
(R.326)Gabriela also identified Sammy as her uncle,whom she saw a few times a
year around the holidays. (R,328)Gabriela did not remember ever being left alone
with Sammy.(R.328)She specifically denied recalling Sammy ever touching her
inappropriatly.(R.328furthermore,Gabriela never saw Sammy touch Jocelyn
inappropriately,never heard Jocelyn screaming for Sammy to stop touching her,and
never heard Jocelyn complain that Sammy had touched her inappropriately.(R.329)
Dany 7Cano then testified that,although she often babysat Jocelyn and
sometimes her brother Sammy visited at the same time,she never left Jocelyn or
her own children alone with Sammy.(R.330-32)Dany did not allow any men to watch
her children alone when they were that age.(R.335)She also explained that the
small apartment she lived in at the time of the alleged incident had only two \
bedrooms.(R.331)The children's bedroom was directly connected to the living room.
(R.331) Thus,Dany testified that if someone screamed from the children's bedroom
it would be audible in the living room.(R.331)
Testifying in his own defense,Sammy denied that he ever touched Jocelyn's
vagina,and specifically denied touching her with his finger fingernail or mouth.
(R.337) At the time of the trial,Sammy was married and had two children of his
own,a five-year-old daughter and a three-year-old son.(R.337)
Defense counsel did not ask Sammy any questions about his statement to
police or the circumstances under which it was taken.However,during his crossexamination, Sammy specifically denied ever telling officers that he touched
Jocelyn's vagina with his tongue.(R.338) Sammy was suprised by the questions that
officers asked him during their interrogation.(R.341)Also on cross-examination,
Sammy denied ever being alone with Jocelyn in Dany's apartment.(R.338)

Verdict
The jury found Sammy guilty of both counts.The circuit court continued the

the case for a hearing on Sammy's post-trial motion and sentencing.

Post-Trial Motion and Sentencing Hearing
At a subsequent hearing,Sammy indicated that he had prepared a handwritten
pro se motion in addition to the motion prepared by his counsel.(R.381)The circuit
court accepted Sammy's pro se motion and read its allegations aloud,including
an alleagation that trial counsel was ineffective.(R.382)
The court then asked Sammy "in what way,shape or form were you denied
effective assitance of counsel/"(R.383) Sammy responded by asking "[i]n what
way?",and the court stated"[y]eah,how?"(R.383) Sammy then said that counsel
"was not-he was not pending. He didn't defend me the way he should have. "(R. 383)
When the court asked how this was so,Sammy responded that "[i]n regards to the
police officer,the officer said that I had said some things to him;that I was
only supposed to say yes or no without going into details or other things where
Fcould say and explain things that were in my favor,too."(R.383)The court then
began admonishing Sammy that he could have exercised his right to testify at
trial before realizing that Sammy did testify at trial.(R.384)Then the court
insisted that his counsel's cross-examinations were'"vigorous" and "[a]ny
impeachement or,you know,possible mistakes were brought out by your attorney."
(R.384)
Defense counsel then requested that he be dischargedand a public defender
appointed.(R.384)The court denied the motion,saying "[yjou've been on this case
for years,counsel.This is a motion that was prepared by a friend of [Sammy's]
in the jail."(R.384) The court added that it "asked [Sammy] specifically what
his problems were with his defense and his answer was he didn't like what the
police officer said,So if you were somehow going to accept responsibility to
withdraw for what a police officer said,I will entertain your motion to withdraw."
(R.384)Defense counsel insisted that new counsel should be appointed to at least
l

:(U0J

explore the possibility that counsel gave ineffective assistance at trial.(R,385)
The courttresponded that Sammy "can always explore your ineffectiveness to a
higher court."(R.385)According to the court,"[e]very right of the defendant has
been protected through the representation by able-bodied attorneys for over a
year,"and "[j]ust because he didn't like the fact that the answers a police
officer gave at his trial are not a basis not only for a new trial but for you
to attempt to leave prior to sentencing."(R.386)The court then denied Sammy's
post-trial motion and proceeded to

sentencing.(R.386)

The State introduced Jocelyn's victim impact statement,which noted her
difficult childhood following the alleged incident.(R.387-88)The State then claimed
a harsh sentence was necessary to deter others from committing a similar crime.
(R.390) Finally,the State added that a long

sentence was necessary because of

the possibility of recidivism,even though Sammy had not been accused of any crime
in the interveneing 10 years between the alleged crime and the trial.(R.391)
In mmitigation,defense counsel noted that for the past 12 years,Sammy had
lived a productive life without any contact with the police.(R.392)Sammy married
seven years earlier,and was now raising two children,a five-year-old daughter
abd a three-year-old son.(C.170;R337,392)Sammy was the sole bread-winner for
that family before his arrest;he had completed two years of high school and
was earning $300 per week in the construction industry.(C.170;S.C.9)After his
arrest,his wife and children lost their apartment and did not have a place to
sleep.(C.178)
Furthermore,since Sammy stopped using drugs or alcohol 12 years earlier,
Sammy had not committed any crime at all.(R.393)Sammy had only two prior poss­
ession convictions in his criminal history,neither of which required a prison
sentence.(S.C.8)

j

Defense counsel also introduced letters from Sammy's wife,mother and sister
describing the role he plays as a husband and father activelyraising : his children
)

•'(15)'

and supporting his houshold.(R.392;C.173,176,179,181)Additionally,defense counsel
introduced several letters from Sammy's friends from an Alcoholics Anonymous
group,each of whom described how Sammy helped them overcome their own addiction
issues to become productive members of society.(R.392;C.183-86)Sammy's active
participation in Alcoholics Anonymous rendered him a changed man.(C-170)
The circuit court stated that it believed that Sammy wanted to change his
ways and lead a productive life.(R.394) However,the court felt that a harsh 1
sentence was necessary "for the protection of society."(R.395)Thus,the court
sentenced Sammy to 18 years' imprisonment for the Class X offense of predatory
criminal sexual assault and merged his remaining conviction.(R,395;C.187)

(16) i.

ARGUEMENT
I.

The State failed to prove Sammy Cano Guilty beyond a reasonable doubt

where the only witness to the crime directly contradicted her prior statements
about which of Sammy's body parts contacted her,her response to the contact,and
whether she was threatened during the incident;and where that witness claimed
that her cousin was touched during the same incident,but the cousin flatly denied
that the incident occurred.

The only witness to the crimes Sammy Cano allegedly committed provided
inconsistent statements about the incident and was contradicted by another witness
she claimed was present.In 2004,Jocelyn Gutierrez alleged that she was inapprop­
riately touched by Sammy Cano's fingers and fingernails in 2002.(R.229,244,268)
However,ten years later-and just hours after officers obtained a statement from
Sammy that did not match Jocelyn's earlier accusations-Jocelyn suddenly claimed
that Sammy touched her with his mouth.(R.244,315) In 2004,Jocelyn also claimed
that her cousin Dany was in the living room immediately adjacent to the bedroom
where the incident allegedly happened but did not respond to Jocelyn's screams;
at trial,however,Jocelyn claimed not to remember making these statements.(R.234,
238,253,256,269,275)Jocelyn also changed her story about alleged threats that
Sammy made during the incident,denying such threats to investigators while telling
her mother that she was threatened.(R.238-39,245,253)Jocelyn was consistant,
however,in claiming that her cousin Gabriela was present during the incident
and was the victim of a similar sexual assault.(R.226-27,236-38,244,256,267)
But Gabriela flatly denied that any such incident occurred in her own trial
testimony.(R.328-29)
These inconsistent and contradictory accounts,combined with an entirely
unmemorialized statement that Sammy denied making to police,were insufficent to
; (17)

demonstrate Sammy's guilt beyond a reasonable doubt.Ibis court should reverse
Sammy1s conviction.
Due process protects an accused against conviction except upon proof
beyond a reasonable doubt.of every fact necessary to constitute the crime with
which he is charged.U.S.CONST.,Amend.XIV;ILL.CONST.1970,art.I,§ 2;In re Winship
397 U.S.358,364 (1970).In reviewing a challenge to the sufficiency of the evidence
the reviewing court must determine whether,after viewing the evidence in the
light most favorable to the prosecution,any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.People v.
Smith,185 Ill.2d 532,541(1999).If a reviewing court finds the evidence so
unsatisfactory that it creates a reasonable doubt of the defendants guilt,it
must set aside the conviction.People v.Davis,278, Ill.App.3d 532(lst Dist.1996);
Smith,185 Ill. 2d at 542.
To convict a defendant of predatory criminal sexual assault of a child,
the State must prove three elements beyond a reasonable doubt:(l)that the
defendant was over i7 yeras old; (2) that the victim was under 13 years old; and
(3) that the defendant committed an act of sexual penetration upon the victim.
720 ILCS 5/12-14.1(a)(1) (2002);People v. Stull,2014 IL App(4th) 120704,58.
Sexual penetration means"any contact,however slight,between the sex organ or
anus of one person by an object,the sex organ,mouth,or anus of another person."
720 ILCS 5/12 (.f) (2002)iTo convict a defendant for aggravated criminal sexual
abuse,the State must prove beyond a reasonable doubt:(1) that the defendant
committed an act of sexual conduct with the victim;(2)that the victim was under
18 years old at the time;and (3) that the victim was a family member.720 ILCS
5/12-16(b) (2002);Stull,2014 IL App (4th) at 1159. Sexual conduct means "any
intentional or knowing touching or fondling by the victim or the accused,either
directly or through clothing,of the sex organs,anus or breast of the victim or
accused... for the purpose of sexual gratification or arousal of the victim or

2i?l/

the accused."720 ILCS 5/12-12(e) (2002).
The evidence was insufficient to prove that Sammy touched Gabriela's
vagina with his mouth in 2002.Jocelyn's inconsistent and contradictory

accounts

of the alleged crime,along with a dubious claim about an entirely unmemorialized
statement that Sammy denied making to police,did not prove the crime beyond a
reasonable doubt.
Jocelyn's account of the alleged incident changed several times between
her initial outcry in 2004 and her trial testimony in 2013.To begin,Jocelyn
inconsistently described Sammy's body part that allegedly made contact with her
vagina.In 2004,two years after the alleged incident,Jocelyn told her mother that
Sammy used his fingers,not his tongue,to touch her vagina.(R.229)Jocelyn described
the same finger-to-vagina contact in an interview with the Children' s Advocacy
Center days later.(R.244) During the interview,Jocelyn vividly described the
feeling of Sammy's fingernails touching her.(R.244,268) Despite these detailed
descritions,Jocelyn suddenly altered her story in 2012,when she told investigators
that Sammy touched her vagina with his mouth.(R244,315)this, change in her account
came just hours after Sammy had given a statement to police that included a
description of mouth-to-vagina contact.(R.313-15)
Jocelyn also changed her account of who was present during this alleged
incident.In 2004,Jocelyn claimed in both an interview with investigators and
in her statements to her mother that,while Sammy touched her in the bedroom,her
adult cousin Dany sat in the living room just five feet away.(R.233-34,238,253,
256) Jocelyn also claimed in her 2004 interview with investigators that she
screamed throughout the incident,yet somehow Dany never heard her screams.(R.269,
275) Dany herself testified at trial that she never left Sammy home alone with
the girls,and that she never heard anyone screaming in her small apartment.(R.330
-32).
Jocelyn also changed her story about alleged threats from Sammy during

the incident.At trial,Jocelyn testified that she did not remember whether Sammy
threatened her and admitted that she told investigators that Sammy did not
threaten her.(R.238-39) However,in 2004 Jocelyn told her mother that Sammy had
threatened her,and thus she was afraid to tell anyone about the incident for
two years.(R.245,253.)
Jocelyn's account was also significantly undermined by the testimony of
her cousin Gabriela,who contradicted Jocelyn's persistent claims that Gabriela
was both a witness and a victim during the incident.From her initial outcry to
her trial testimony,Jocelyn consistently alleged that Gabriela was in the room
during the incident and was also a victim of inappropriate contact by Sammy.In
2004,Jocelyn told both her mother and investigators that Sammy touched Gabriela
during the same incident wherein he touched Jocelyn.(R.236-38,244,256,267) At
trial,Jocelyn reiterated that Gabriela was in the room during the entire incident,
although she claimed that she could not recall what "interaction" Gabriela had
with Sammy at that time.(R.236-37) However,Gabriela herself testified that she
was never left alone with Sammy.(R.328) Gabriela specifically denied seeing
Sammy touch Jocelyn inappropriately,hearing Jocelyn screaming for Sammy to stop
touching her,and or hearing Jocelyn later complain that Sammy had touched her
inappropriately.(R.329) Gabriela's unimpeached denial that the incident never
happened thus discredited Jocelyn's account.
Nor was the conviction supported by any physical evidence whatsoever.
Although Jocelyn was taken to a doctor shortly after her outcry in 2004,the
State did not present any physical evidence tending to show that Sammy had touched
Jocelyn in 2002.
Aside from Jocelyn's inconsistent,contradicted testimony,the only proof
the State offered that the incident occurred was dubious testimony that Sammy
made an unmemorialized inculpatory statement to the police shortly after his
arrest.Officer De La Torrens account of Sammy's statements strained credulity.
r(20) lJ

De La Torre claimed that when he interviewed Sammy,he did not make any audio,
video,or handwritten notes of their conversation.(R.309-10,3l6)Yet during this
unmemorialized interview,De La Torre claimed that Sammy admitted that he took
Jocelyn's clothes off and put his tongue between her vagina lips.(R.313) .L — De La Torre admitted that Sammy never said that Gabby was in the room during the
incident,that Jocelyn screamed,or that Sammy used his fingers to touch Jocelynall details that Jocelyn,to that point,had included in her own account of the
events. (R.317^-18) And only after Sammy allegedly made these unmemorialized
statements did Jocelyn suddenly change her story to claim that Sammy touched her
with his mouth,not his:-fingers.(R.244,313-15)This unmemorialized statement,
which Sammy denied making (R.338),hardly supported a guilty verdict.
The State failed to prove Sammy Cano guilty beyond a reasonable doubt.
The Conviction was based upon a series of inconsistent statements by Jocelyn
which were contradicted by Gabriela's and Dany's testimonies.lt drew little
support from a supposed confession that was unmemorialized and which Sammy
denied making.Because the evidence was insufficient to prove beyond a reasonable
doubt that Sammy touched Jocelyn's vagina with his mouth,this Court should
reverse his conviction.

(21) •

II.

Officers unconstitutionally seized Sammy Cano in a Home Depot parking

lot when Sammy neither committed nor witnessed any crime,contrary to the circuit
court's ruling on Sammy's motion to quash arrest.

When officers arrested Sammy Cano in a Home Depot parking lot,they lacked
probable cause to believe he had either committed a crime or witnessed one.
Offricers merely saw a group of men approaching cars in the parkimg lot and
allegedly seeking work.That is simply not an illegal act.Furthermore,even if
Sammy provided a false name and inconsistent birthdays in response to the officers
questions,that was not a crime because Sammy was neither lawfully detained nor
a witness to a criminal offense.Officers thus unconstitutionally arrested Sammy,
and only later connected him to the charges in this case and obtained an incul­
patory statement.Because that statement was the fruit of Sammy's unconstitutional
arrest,it should have been supressed at trial,contrary to the circuit court's
ruling.This Court should reverse that ruling and remand for a new trial absent
the statement.
An arrest occurs when the circumstances are such that a reasonable
person,innocent of any crime,would conclude that he was not free to leave.' "
People v. Lopez,229 Ill.2d 322,346 (2008) (quoting In re D.G.,144 Ill.2d 404,
409 (1991)).To make such an arrest without a warrant,a police officer must have
probable cause.People v. Love,199 Ill. 2d 269,278 (220);see also People v. Buss
187 Ill.2d 144,204 (1999).Probable cause exists where all of the facts officers
knew at the time of the arrest would "lead a reasonably cautious person to believe
that the arrestee had committed a crime."Love,199 alll.2d at 278.
There is no doubt that officers arrested Sammy Cano when they "placed
[him] in custody for obstruction of identification."^. 108) A reasonable
innocent person would conclude that he was not free to leave once he was placed
in custody.Lopez,229 Ill. 2d at 346.Additionally,there is no doubt that officers

V' (22)-i

lackeddan arrest warrant for Sammy when they placed him in custody.(C.106) Thus,
officers could only constitutionally effectuate that arrest if they had probable
cause to believe that Sammy committed a crime.As discussed below,no such probable
cause existed.
Under the Illinois Vehicle Code,a person commits

a class A misdemeanor

if they "stand on a highway for the purpose of soliciting employement or
business from the occupant of any vehicle."625 ILCS 5/ll-1006(b) (2012).The
vehicle Code defines a highway to include "every way publicly maintained when
any part thereof is open to the use of the public for purposes of vehicular
travel."625 ILCS 5/1-126 (2012) Thus,for a parking lot to qualify as a highway,
it must be publicly maintained.People v. Relwani,2019 IL 123385,fl 12. Additionally,
Section 10-8-515 of the Chicago Municipal Code prohibits use of a public way to
solicit"unlawful business," defined as an,"exchange of goods or services...
where the nature of the goods or services,or the exchange thereof,is unlawful."
Chicago Municipal Code § 10-8-515 (a),(b)(quoted in People v. Grant,2013 II
112734,1! 9).
Under Illinois's obstructing identification statute,providing an officer
a false name,address,or birthday is only a crime if,at the time the officer
requested that information,the officer has "(1) lawfully arrested the person;
(2)lawfully detained the person;or (3) requested the information from a person
the peace officer has good cause to believe is a witness to a criminal offense."
720 ILCS 5/31-4.5(2012);People v. Espino-Juarez,2018 IL App (2d) 150966,1113.
Tt'is not enough to speculate that the officer's investigation might subsequently
reveal that a crime has been committed." Id.
In this case,the arresting officers did not have probable cause to believe
that Sammy or anyone else committed a crime before they arrested Sammy.The
officers admittedly approached a group of men,including Sammy,within a Home
Depot parking lot.(C.103-06)The officers had no reason to believe that such a

((23)1
>_

parking lot was publicly maintained so as to constitute a "highway" where the
solicitation of employement would be a misdemeanor.625 ILCS,5/11-1006(b)(2012);
Relwani,2019 IL 123385 at H 12.When officers allegedly observed some of the men
"approach...vehicles" in the parking lot,they had no basis to believe that the
men had committed a'.crime.
Nor did the officers testify that they saw or heard anyone soliciting any
illegal items or unlawful transactions from drivers in that parking lot.Only
such solicitation of unlawful business constitutes a crime under the Chicago
Municiple Code.Chicago Municiple Code§ 10-8-515 (a),(b)(quoted in Grant,2013 IL
112734 at

9).The officers had no probable cause to believe this crime had been

committed.
Nor did the officers have probable cause to arrest Sammy for obstructing
identification,even if he did provide a false name and birthday.Providing such
false information is only a crime if,at the time that officers request that
information,the subject has lawfully been arrested or detained or the officer
has the equivalent of probable cause to believe the subject witnessed a criminal
offense.720 ILCS 5/31-4.5 (2012);Espino-Juarez,2018 IL App (2d) 150966 at

13.

Again,the officers could not lawfully arrest or detain Sammy because they had
not seen him,or anyone else commit any crime in that parking lot.Nor had the
officers received any reports of such crimes that day;they only travelled to the
Home Depot parking lot in response to loitering in that area in the prior six
months,not in response to any complaints at all that morning.(C.102-03)
Furthermore,the officers did not have any reason to believeSammy was a witness
to a criminal offense.The others in the group with him were not acting unlawfully.
Nor did the officers learn of the investigative alert until after they placed
Sammy in custody.(C.109,114) Even if that investigative alert contained
information amounting to probable cause-an issue that Sammy does not concede
given the lack of evidence in the suppression hearing regarding the contents of
I------------7

of the alert-it could not have justified the officers' arrest made before they
ever saw it.
The officers lacked probable cause to believe that Sammy either committed
or witnessed a crime.Thus,they could not warrantlessly arrest him.The circuit
court erred in denying Sammy's motion to quash that arrest.
Yet the unconstitutional arrest yielded a primary piece of evidence the
State relied upon in its case-in-chief.Just hours after arresting Sammy and
discovering the investigative alert,the arresting officers delivered Sammy to
Detective De La Torre,who would later testify that Sammy made an inculpatory
statement in the station.Although,as noted in Issue I above,that statement was
unmemorialized and wholly denied by Sammy,the State relied upon it heavily
when presenting its case.That statement was the fruit of Sammy's illegal arrest;
it should have been suppressed at trial,which may have affected the outcome of
the trial.
Officers arrested Sammy Cano when they placed him in custody for"obstruction
of identification" after asking for his name in a Home Depot parking lot.At that
time,officers had no probable cause that Sammy or anyone else had committed a y
crime;thus they likewise had no probable cause that Sammy was violating any laws
by providing an incorrect name and birthday.lt was not until after that i
unconstitutional arrest that officers located an investigatory alert that
connected Sammy to the crime at issue in this case and obtained an inculpatory
statement,Such fruits of that arrest should have been suppressed at trial.This
Court should reverse the circuit court's ruling on Sammy's motion to quash arrest
and remand for a new trial absent the statement that was the fruit of that
arrest.

((25) j

III.

The circuit court should have provided Sammy Cano new counsel to assess

his claim that trial counsel ineffectively failed to present evidence showing
an inculpatory statement to the police was coerced.

When the circuit court read Sammy Cano's pro se post-trial allegation
that his counsel was ineffective,it asked Sammy just a few cursory questions.
(R.382-85) Though those questions revealed that Sammy's counsel may not have
sufficeintly questioned Sammy about the context surrounding his inculpatory .
statement-to reveal possible misconduct or coercion,the court rushed the case
to sentencing.(R.383)Such a truncated discussion,without any specific questions
asked of counsel about his questioning of Sammy and possible corcion of Sammy's
statement,is not the inquiry into pro se allegations of ineffective assistance
that People v. Krankel,102 Ill.2d 181(1984) requires.Had the court conducted
that inquiry,it would have learned that new counsel was needed to independently
assess and present Sammy's ineffectiveness claims.This Court should reverse
and remand with instructions to appoint such counsel for arguements on Sammy's
claims.
When a defendant makes a pro se claim of ineffective assistance of trial
counsel at sentencing,the trial court must examine the factual-matters under­
lying thatcc.Iaim.People v.Robinson,157 Ill.2d 68,86(1993);People v. Sanchez,
329 Ill.App.3d 59,66 (2002).The claim then can be denied if it lacks merit,
while if the allegations suggest that defense counsel has neglected the case,
new counsel should be appointed.Robinson,157 Ill. 2d at 86;Sanchez,329 Ill.App
3d at 66;see also People v. Nitz,143 Ill.2d 82(1991)
This Court has held that this evaluation usually necessitates "some
interchange between the trial court and trial counsel regarding the facts and
circumstances surrounding the alleged ineefective representation."People v.
Moore,207 Ill.2d 68,78(2003)(adding that[a]brief discussion between the trial

(26)

court and the defendant " is sometimes sufficient.)The trial court can also
rely upon its knowledge of defense counsels performance at trial in this
evaluation.Id, However,"[t]he trial court should afford a defendant the oppor­
tunity to specify and support his'complaints and not 'precipitously and
prematurely' deny the motion."Sanchez,329 Ill.App 3d 66(quoting Robinson,157
Ill.2d at 86). reviewing courts consider whether the trial court adaquately
considered a defendant! Is post-trial claim of ineffective assistance of counsel
de novo.People v. Taylor,237 Ill.2d 68,75 (2010);Moore,207 Ill.2d at 75.
Under both the United States and Illinois constitutions,a defendant
has the right to the effective assistance of counsel.People v. Hale,2013 IL
113140,1! 15. U.S. CONST.,amends.VI,XIV;ILL.CONST.1970,art-I,§8. A defendant is
deprived of the effective assistance of counsel when:(l)counsel's performance
was deficient in that it fell below an objective standard of reasonableness;
and (2) the deficient performance prejudiced the defense in that counsel's errors
deprived the defendant of a fair trial with a reliable result.Strickland v.
Washington,466 U.S. 668,687 (1984).When determining prejudice,the question is
whether there exists "a reasonable probability that but for counsel's
unprofessional errors,the result of the proceeding would have been different."
People v. Cano,220 Ill App.3d 725,729(lst Dist.1991)(reversing for ineffective
assistance of sentencing counsel).
The circuit court's truncated exchange after reading Sammy Cano's pro se
ineffectiveness allegation failed Krankel's requirements.Instead of consulting
with trial counsel to determine the facts and circumstances surrounding counsel's
failure to question Sammy about his inculpatory statement to police,the court
assumed counsel was effective based upon unrelated cross-examinations.The court
should have conducted a Krankel

inquiry with counsel and appointed a new

attorney to independently evaluate and present Sammy's allegations.
To begin,the Court's cursory discussions with Sammy did not meet Krakel's

l

I.MJ

requirements. Sammy told the court that his counsel has not explored the fact
that,,during his interrogation and inculpatory statement,Sammy"was only supposed
to say yes and no without going into any details of other things where I could
say and explain things that were in my favor,too.(R.383)lhe court,seemingly
ignoring Sammy's claim,began to improperly admonish him about failing to
exercise his right to testify.(R.384)Had the court recalled Sammy's testimony,
it would have known that defense counsel did not ask Sammy any questions about
his statement to police or the circumstances under which it was taken,even
though Sammy denied ever making those unmemorialized statements.(R.338)Thus,
the possibility that counsel ineffectively failed to ask Sammy about police
efforts to coerce his statements or overbear his will remained unexplored.
Next the court did not have the kind of "interchange" with counsel
"regarding the facts and circumstances surrounding the allegedly ineffective
representation" that Krankel usually necessitates.People v. Moore,207 Ill-2d at
78. Instead,the court was determined to proceed to sentencing no matter what
counsel did or said. Even though counsel stated his belief that a new attorney
was necessary to investigate counsel's own possible ineffectiveness,the court
demurred.The court then insisted that because trial counsel's cross-examinations
were "vigerous".he must have done a good job in all aspects of the trial.(R.384-85)
Rather than asking counsel why he wanted to be discharged,the court insisted
that counsel was effective because he had "been on this case for years."(R.384)
At the end of its cursory discussion of Sammy's ineffective assitance
allegations,the circuit court noted that Sammy "can always explore your
ineffectiveness to a higher court."(R.385) Phis Court should do exactly that.
The circuit court failed to conduct a proper Krankel inquiry into Sammy's
,

allegations of ineffectiveness tied to his counsel's failure to question him
about the circumstances of his interrogation.This Court should reverse and
remand for the appointment of counsel to fully present Sammy's claims.
.1

(_(2fO j

IV.

The circuit court excessively sentenced Sammy Cano to three times

the minimum term even though Sammy had not committed any crimes in the decade
since the incident and had established himself as a productive member of society
and caring father of two young children.

Between the alleged incident in 2002 and Sammy Cano's arrest in 2012,
Sammy committed no crimes and had no contact whatsoever with police.In that
decade,he became a changed man,committing to sobriety and becoming a pillar
of the Alcoholics Anonymouos comnunity.Sammy obtained well-paying employement
in the construction industry and provided loving support to his wife,five-yearold daughter and three-year-old son.(R.337)Yet at sentencing,the circuit court
insisted that it had to sentence Sammy to triple the minimum sentence

for the

protection of society.''(R.395)That 18-year sentence did not protect society;
instead,the sentence removed one of society's contributing members for nearly
two decades,This Court should reduce it.
Illinois Supreme Court Rule 615(b)(4) grants a reviewing court the
the circuit court.IL.Sup.Ct.R.615(b)(4).
power to reduce the sentence imposed by
Illinois courts have exercised this power when the circuit court s sentence
constitutes an abuse of discretion,even if it falls within the statutory range
for the offense.People v. Stacv.193 Ill■2d,209-10(2000);People v. McGee,398
Ill.App.3d 789,795(lst Dist.2010)."[A] sentence within the statutory limits
will be deemed excessive and the result of an abuse of discretion by the trial
court where the sentence is greatly at variance with the spirit and purpose
of the law,or manifestly disproportionate to the nature of the offense."Stacy,
193 Ill.2d 2d at 210.This Court has also reducee a sentence within the statutory
range where fundamental fairness in sentencing required it.See People v. Jones^
113 Til .Ann.2d 189,198(lst Pist.1%9).

The Illinois Constitution requires that a sentence "shall be determined
both according to the seriousness of the offense and with the objective of
restoring the offender to useful citizenship/'ILL.CONST.1970 art.I,§ 11.
Thus,a trial court "must not only consider rehabilitative factors in imposing
a sentence,it must also make rehabilitation an objective of the sentence."
People v. Wendt,163 Ill.2d 346,353(1994).The statutory minimum sentence often
can be sufficient to provide "adequate retribution."People v. Steffens,131 Ill.
App.3d 141,151(lst Dist.1985).This Court has noted that "[l]ong periods of
confinement have little,if any,value in a rehabilitative strategy."People v.
Kosanovich,69 Ill.App.3d 748,752(lstDist.1979).Courts throughout Illinois
have repeatedly found sentences excessive where there were few or no aggravating
factors and the sentence exceeded the statutory minimum.See e.g.,People v.
Williams,196 Ill.App.3d 851,867-68(lst Dist. 1990);People v. Colter,181 Ill.
App.3d 392,393-96(3rd Dist.1989);Steffens,131 Ill.App.3d at 151-53;People v.
Bailey,88 Ill App.3d 416,424-25(3rd Dist.1980).
The evidence adduced at sentencing showed that Sammy Cano could be restored
to useful citizenship after a minimum Class X sentence of six years.By the time
of sentencing,Sammy had already changed his life to become an upstanding member
of his community.
In the decade between the alleged offense and his arrest,Sammy had
lived a productive life without any contact with the police.(R.392)Sammy was
marreid three years after the incident;that marriage produced two children,a
five-year-old daughter and a three-year-old son,whom Sammy supported financially
and emotionally until his arrest.(C.170;R.337,392) Sammy was

the sole bread-

winner for his family,earning $300 per week in the construction industry.(C.170;
S.C.9) After his arrest,his wife and children lost their apartment and did not
have a place to sleep.(C.178)
Sammy also played an impressive role in the recovering alcoholic
'i

L.(3Cl)J

community in Chicagoland.Defense counsel introduced several letters from
Sammy's friends,each of whom described how Sammy helped them overcome their
own addiction issues to become productive members of society,(R.392;C.183-86)
After sobriety led Sammy to lead a crime-free,fulfilling life,he passed on that
possibility to others for whom he acted

as sponser.(C.170)As Sammy's presentence

investigation report noted,his only criminal convictions preceeded his sobriety;
since that time,he had been crime-free and contributed consistently to his
community.(S.C. 8)
Sammy's family also attested to the active role he played in their lives.
Letter's from Sammy's wife,mother,and sister described his enthusiasm in raising
his children and supporting his household.(R,392;C.173,176,179,181)
There was no need for an extended sentence to protect society,as the
circuit court claimed.(R.395)The courtHs 18-year sentence meant Sammy would have
no opportunity to continue demonstrating his rehabilitation and guiding others
to a changed,substance-free life for nearly two decades.Nor did the nature of
the crime suggest that such an extended sentence was necessary.According to
recent longitudinal data compiled by the Department of Justice's Bureau of
Justice Statistics,those who served time for rape or sexual assault were almost
20% less likely to be rearrested than those incarcerated for other crimes.
U.S. DEPARTMENT OF JUSTICE,BUREAU OF JUSTICE STATISTICS,Recidivism of Sex
OffendersReleased from State Prison:A 9-year Follow-Up(2005-14),May 2019,
available at https://www.bjs.gov/content/pub/pdf/rsorsp9yfu0514.pdf.
Furthermore,only half of those who served sentences for rape or sexual assault
had a new arrest that led to a conviction for any offense,compared to 69% of
all individuals released in the same time period.Id. Neither national trends
nor the individual circumstances of this case justify a lengthy sentence to
protect society.
There is little doubt that Sammy Cano can be a productive member of
L

; (31).

society ;he proved that much in the decade between this alleged incident and
his arrest.He has stayed clear of criminal activity and became a father,
husband,and a mentor to others struggling with addiction.In light of that proof
of Sammy's rehabilitation,the circuit court's 18-year sentence "for the ,
protection of society" was excessive.This Court should reduce it to the statutory
minimum of six years.
VI.
CONCLUSION
Wherefore,your petitioner respectfully requests this Honorable Court to
grant his petition for leave to appeal.
Respectfully submitted,
Sammy Cano,
Pro se.

(32)

CONCLUSION

The petition for writ of certiorari should be granted.

Respectfully submitted
. Sammy Cano
June 16th,2021

(33)

